APPENDIX C
(SUMMARY ORDER

19-975
Dimps v. Taconic Correctional Facility

UNITEP STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A SUMMARY
ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION “SUMMARY ORDER"). A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit,
held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of
New York, on the 5th day of February, two thousand twepty.
PRESENT:
PIERRE N. LEVAL,
REENA RAGGI,
DEBRA ANN LIVINGSTON,
Circuit Judges.
Shirley Dimps,
Plaintiff-Appellant,
19-975

v.
Taconic Correctional Facility, New York State
Department of Corrections pnd Community
Supervision, New York State Department of
Civil Service, and Civil Service Employees
Association, Inc.,
Defenilants-Appellees. *

* The Clerk of Court is respectfully directed to amend the caption as set forth above.

1

CERTIFIED COPY ISSUED ON 02/05/2020

i

FOR PLAINTIFF-APPELLANT:

Shirley Dimps, pro se, Bronx, NY.

FOR DEFENDANTS-APPELLEES:

Darren J, Rylewicz, Leslie C. Perrin
Civil Service Employees
Association, Inc., Albany, NY (for
Civil Service Employees
Association, Inc.).
Amit R. Vora, New York State
Office of the Attorney General, New
York, NY (for Taconic Correctional
Facility, New York State Department
of Corrections and Community
Supervision, and New York State
Department of Civil Service).

*

Appeal from a judgment of dismissal entered on March 27, 2019, in the United States

District Court for the Southern District of New York (Nelson S. Roman, /.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the district court is AFFIRMED in part, VACATED in part,
and REMANDED,
Plaintiff Shirley Dimps, proceeding pro se, appeals the district court’s dismissal of her
action against the Taconic Correctional Facility (“Taconic”), the New York State Department of
Correction and Community Supervision (“DOCCS”), the New York State Department of Civil
Service (“DCS”) (together, the “State Defendants”), and the Civil Service Employees Association,
Inc. (“CSEA”). Against the State Defendants, Dimps asserted claims under Title VII of the Civil
Rights Act of 1964 (“Title VII”), the Age Discrimination in Employment Act (“ADEA”), the
Americans with Disabilities Act (“ADA”), 42 U.S.C. § 1981, the New York State Human Rights
Law (“NYSHRL”), and the New York City Human Rights Law (“NYCHRL”). Against CSEA,

2

her labor union, Dimps asserted a breach of the duty of fair representation claim under New York’s
Taylor Law. See N.Y. Civ. Serv. Law § 209-a. Dimps also asserted breach of contract claims
against all defendants.

We assume the parties’ familiarity with the underlying facts, the

procedural history of the case, and the issues on appeal.
I.

The State Defendants
Upon de novo review, see Smith v. Hogan, 794 F.3d 249, 253 (2d Cir. 2015), we conclude

that the district court correctly dismissed all claims against Taconic, the facility where Dimps
worked, because DOCCS, not Taconic, was Dimps’s employer, see N.Y. Correct. Law § 7(2).
The court also correctly dismissed Dimps’s ADA, ADEA, § 1981, and state-law claims against
DOCCS and DCS as barred by the Eleventh Amendment. The ADA, ADEA, and § 1981 do not
abrogate states’ sovereign immunity, which New York has not waived as to any of these claims.
See Univ. ofAla. v. Garrett, 531 U.S. 356, 374 (2001) (ADA); Kimel v. Fla. Bd. of Regents, 528
U.S. 62, 91 (2000) (ADEA); Edelman v. Jordan, 415 U.S. 651, 678 (1974) (§ 1983 and, by
extension, §1981); Feingold v. New York, 366 F.3d 138, 149 (2d Cir. 2004) (NYCHRL);
Richardson v. N.Y. State Dep’t of Corr. Serv., 180 F.3d 426, 449 (2d Cir. 1999) (NYSHRL),
abrogated on other grounds, Burlington N. & Santa Fe Ry. Co. v. White, 548 U.S. 53 (2006). We
further agree with the district court that Dimps’s sparse and conclusory amended complaint does
not state plausible Title VII claims for failure to promote, hostile work environment, and retaliation
against DOCCS and DCS. See Aulicino v. N. Y.C. Dep 7 ofHomeless Servs., 580 F.3d 73, 80, 82
(2d Cir. 2009) (stating elements of failure to promote and hostile work environment claims); Jute
v. Hamilton Sundstrand Corp., 420F.3d 166,172-73 (2d Cir. 2005) (stating elements of retaliation
claim).
3,

Nevertheless, we conclude that the district court should not have dismissed Dimps’s Title
VII claims against DOCCS without affording her an opportunity to file a second amended
complaint. See generally Chavis v. Chappius, 618 F.3d 162, 170 (2d Cir. 2010) (“A pro se
complaint should not [be] dismissed] without [the Court] granting leave to amend at least once
when a liberal reading of the complaint gives any indication that a valid claim might be stated.”
(internal quotation marks omitted)). When Dimps’s amended complaint is read together with
specific facts asserted in opposition to defendants’ motions to dismiss, there is at least an indication
that she may be able to state a plausible Title VII claim of race discrimination in promotion against
DOCCS. See Nielsen v. Rabin, 746 F.3d 58, 64 (2d Cir. 2014) (considering allegations raised in
opposition papers in vacating denial of leave to amend); Walker v. Schult, 717 F.3d 119, 122 n.l
(2d Cir. 2013) (“A district court deciding a motion to dismiss may consider factual allegations
made by a pro se party in [her] papers opposing the motion.”). Specifically, her opposition filing
details five occasions when she was passed over for specific promotions awarded to equally or less
well-qualified candidates of other races and makes some showing that promotions at Taconic are
generally awarded not to African American or Hispanic employees but, rather, to Caucasian or
Indian candidates. See Aulicino, 580 F,3d at 80. Viewing these allegations liberally, and in light
of her pro se status, Dimps should hgve been afforded a further opportunity to plead her Title VII
claim of race discrimination.2
Dimps, however, should attach to any such amended complaint her August 2016 EEOC

2 Even viewed liberally, Dimps’s opposition filing does not indicate that she can state valid ADA, ADEA, or § 1981
claims against individual DOCCS supervisors and, thus, there is no reason to grant leave to amend those claims. To
be sure, Dimps advised the district court that she did not wish to file any second amended complaint. As became
apparent at oral argument before this Court, this pro se litigant did not understand that the rules permit more than one
amendment.

4

charge as well as any other claims subsequently raised before the EEOC, in order to demonstrate
the timeliness of her Title VII claim and the requisite exhaustion of administrative remedies.
n.

CSEA
The district court dismissed Dimps’s claims against CSEA for lack of subject matter

jurisdiction and, in the alternative, for failure to state a claim. Further, it concluded that any
amendment would be futile. On de novo review, we agree. Neither Dimps’s amended complaint
nor her other filings in the district court indicate an ability to assert valid claims against CSEA.
See Chavis, 618 F.3d at 170.
*

*

We have considered pimps’s remaining arguments and fjnd them to be without merit.
Accordingly, we AFFIRM thp judgrpent to the extent it dismisses all claims against Taconic, DCS,
and CSEA. We AFFIRM in part the judgment dismissing claims against DOCCS but VACATE
the judgment to the extent it denied leave to amend the Title VII claims against DOCCS. As to
these latter claims, we REMIND to the district court to allow Dimps an opportunity to amend her
complaint to allege Title VII claims against DOCCS to the extent she can demonstrate that those
claims were timely exhausted before the EEOC.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

A True Copy
Catherine O’Hagan Wg|

United States CouftT^g|>eai
/O

n

.

5

erk

econd Circuit
1*1
AX

U>4*-

APPENDIX I
ORDER FOR REHEARING/REHEARING EN BANC

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United Spates Cpurthouse, 40 Foley Sqyare, iq the City of New York, on the
27th day of April, two thousand twenty.

Shirley Dimps,
Plaintiff-Appellant,
v.
Taconic Correctional Facility, New York State
Department of Corrections and Corqmunity Supervision,
New York State Department pf Civil Service, and Civil
Service Employees Association, Inc.,

ORDER
Docket No: 19-975

Defendants-Appellees.

Appellant, Shirley Dirqps, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

\
/
<

V
*

CLERK’S OFFICE

FIRST-CLASS ICAIL

u.s. court of appeals

0'?/28/202C

UNITED STATES COURTHOUSE
FOLEY SQUARE
NEW YORK, NY 10007

ilia

OFFICIAL BUSINESS

S00.502
£'010007
01 11-1
IN­

104S3Sii&5 COOS

1

'\
\

APPENDIX J
MANDATE SUMMARY ORDER

. y

MANDATE
19-975
Dimps v. Taconic Correctional Facility

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A SUMMARY
ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITp EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION "SUMMARY ORDER"), A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT REPREgENTEp BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit,
held at the Thurgood Marshall United States Courthoqse, 40 Foley Square, in the City of
New York, on the 5th day of Febrqary, two thousand twenty.
PRESENT:
PIERRE N. LEVAL,
REENA RAGGI,
DEBRA ANN LIVINGSTON,
Circuit Judges.
\

Shirley Dimps,
Plaintiff-Appellant,
v.

19-975

Taconic Correctional Facility, New York State
Department of Corrections and Cprnm unity
Supervision, New York State Department of
Civil Service, and Civil Service Employees
Association, Inc.,
Defendants-Appellees. *

* The Clerk of Court is respectfully directed to amend the caption as set forth above.

1

MANDATE ISSUED ON 05/04/2020

p*

FOR PLAINTIFF-APPELLANT:

Shirley Dimps, pro se, Bronx, NY.

FOR DEFENDANTS-APPELLEES:

Darren J. Rylewicz, Leslie C. Perrin,
Civil Service Employees
Association, Inc., Albany, NY (for
Civil Service Employees
Association, Inc.).
Amit R. Vora, New York State
Office of the Attorney General, New
York, NY (for Taconic Correctional
Facility, New York State Department
of Corrections and Community
Supervision, and New York State
Department of Civil Service).

Appeal from a judgment of dismissal entered on March 27, 2019, in the United States
District Court for the Southern District of New York (Nelson S. Roman, J.).
;

UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the district court is AFFIRMED in part, VACATED in part,
and REMANDED.
Plaintiff Shirley Dimps, proceeding pro se, appeals the district court’s dismissal of her
action against the Taconic Correctional Facility (“Taconic”), the New York State Department of
Correction and Community Supervision (“DOCCS”), the New York State Department of Civil
Service (“DCS”) (together, the “State Defendants”), and the Civil Service Employees Association,
Inc. (“CSEA”). Against the State Defendants, Dimps asserted claims under Title VII of the Civil
Rights Act of 1964 (“Title VII”), the Age Discrimination in Employment Act (“ADEA”), the
Americans with Disabilities Act (“ADA”), 42 U.S.C. § 1981, the New York State Human Rights
Law (“NYSHRL”), and the New York City Human Rights Law (“NYCHRL”). Against CSEA,

2

✓

her labor union, Dimps asserted a breach of the duty of fair representation claim under New York’s
Taylor Law. See N.Y. Civ. Serv. Law § 209-a. Dimps also asserted breach of contract claims
against all defendants.

Wp assume the parties’ familiarity with the underlying facts, the

procedural history of the case, and tjie issues on appeal.
I.

The State Defendants
Upon de novo review, see Smith v. Hogan, 794 F.3d 249, 253 (2d Cir. 2015), we conclude

that the district court correctly dismissed all claims against Tacpnic, the facility where Dimps
worked, because DOCCS, npt Taconic, was Dimps’s employer, see N.Y. Correct. Law § 7(2).
The court also correctly dismissed Dimps’s ADA, ADEA, § 1981, and state-law claims against
DOCCS and DCS as barred by the Eleventh Amendment. The ADA, ADEA, and § 1981 do not
abrogate states’ sovereign immunity, which New York has not waived as to any of these claims.
See Univ. ofAla. v. Garrett, 531 U.S. 356, 374 (2001) (ADA); Kimel v. Fla. Bd. of Regents, 528
U.S. 62, 91 (2000) (ADEA); Edeltnan v. Jordan, 415 U.S. 651, 678 (1974) (§ 1983 and, by
extension, § 1981); Feingolfi v. New York, 366 F.3d 138, 149 (2d Cir. 2004) (NYCHRL);
Richardson v. N.Y. State Dep’t of Corr. Serv., 180 F.3d 426, 449 (2d Cir. 1999) (NYSHRL),
abrogated on other grounds, Burlington N. & Santa Fe Ry. Co. v. White, 548 U.S. 53 (2006). We
further agree with the district court (hat Dimps’s sparse and conclysory amended complaint does
not state plausible Title VII claims for failure to promote, hostile work environment, and retaliation
against DOCCS and DCS. See Aulicino v. N.Y.C. Dep’t ofHomeless Servs., 580 F.3d 73, 80, 82
(2d Cir. 2009) (stating elements of failure to promote and hostile work environment claims); Jute
v. Hamilton Sundstrand Corp., 420 F.3d 166,172-73 (2d Cir. 2005) (stating elements of retaliation
claim).
3

'.V''

Nevertheless, we conclude that the district court should not have dismissed Dimps’s Title
VII claims against DOCCS without affording her an opportunity to file a second amended
complaint. See generally Chavis y. Chappius, 618 F.3d 162, 170 (2d Cir. 2010) (“A pro se
complaint should not [be] dismissed] without [the Court] granting leave to amend at least once
when a liberal reading of the complaint gives any indication that a valid claim might be stated.”
(internal quotation marks omitted)). When Dimps’s amended cpmplaint is read together with
specific facts asserted in opposition to defendants’ motions to dismiss, there is at least an indication
that she may be able to state a plausible Title VII claim of rape discrimination in promotion against
DOCCS. See Nielsen v. Rabin, 746 F.3d 58, 64 (2d Cir. 2014) (considering allegations raised in
opposition papers in vacating denial of leave to amend); Walker v, Schult, 111 F.3d 119, 122 n.l
(2d Cir. 2013) (“A district court deciding a motion to dismiss may consider factual allegations
made by a pro se party in [her] papers opposing the motion.”). Specifically, her opposition filing
details five occasions when she was passed over for specific promotions awarded to equally or less
well-qualified candidates of other races and makes some showing that promotions at Taconic are
generally awarded not to African American or Hispanic employees but, rather, to Caucasian or
Indian candidates. See Aulicino, 580 F.3d at 80. Viewing these allegations liberally, and in light
of her pro se status, Dimps should have been afforded a further opportunity to plead her Title VII
claim of race discrimination.^
Dimps, however, should attach to any such amended complaint her August 2016 EEOC

2 Even viewed liberally, Pimps’s opposition filing does not indicate that she can state valid ADA, ADEA, or § 1981
claims against individual DOCCS supervisors and, thus, there is no reason to grant leave to amend those claims. To
be sure, Dimps advised the district court that she did not wish to file any second amended complaint. As became
apparent at oral argument before this Court, this pro se litigant did not understand that the rules permit more than one
amendment.

4

charge as well as any other claims subsequently raised before the EEOC, in order to demonstrate
the timeliness of her Title VII claim and the requisite exhaustion of administrative remedies.
II.

CSEA
The district court dismissed Dimps’s claims against CSEA for lack of subject matter

jurisdiction and, in the alterpative, for failure to state a cjaim. Further, it concluded that any
amendment would be futile. On de novo review, we agree. Neither Dimps’s amended complaint
nor her other filings in the district court indicate an ability to assort valid claims against CSEA.
See Chavis, 618 F.3d at 170.
*

We have considered Dimps’s remaining arguments and find them to be without merit.
Accordingly, we AFFIRM the judgment to the extent it dismisses all claims against Taconic, DCS,
and CSEA. We AFFIRM iq part the judgment dismissing claims against DOCCS but VACATE
the judgment to the extent it denied leave to amend the Title VII claims against DOCCS. As to
these latter claims, we REMAND to the district court to allow Dimps an opportunity to amend her
complaint to allege Title VII claims against DOCCS to the extent she can demonstrate that those
claims were timely exhausted before the EEOC.
FOR THE COjJRT:
Catherine O’Hagan Wolfe, Clerk of Court

A True Copy
Catherine O’Hagan W

5

irk

United States Couphaf Appeafiff.NSecond Circuit
Lf SECOND \*

A*

i

f

CLERK’S OFFICE

U.S. COURT OF APPEALS

/
(

/

UNITED STATES COURTHOUSE
FOLEY SQUARE
NEW YORK, NY 10007

■L -t'

Q&felZigQ
i

eg nr-

OFFICIAL BUSINESS

: ?J

LiP P7ji. 7
> ' -]A

/ 104»S3IlpB .CODS

\
\

APPENDIX M
OPINION & ORDER
3/20/2019

Case 7:17-cv-08806-NSR Document 71 Filed 03/20/19

flt-OCUMSNT
;i electronically f/lb:...;;
\\ BOG ik_______
;!;;aTE7H"r};i J^F?■<?> ?

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
SHIRLEY DIMPS,

5

'

Plaintiff,
-againstTACONIC CORRECTIONAL FACILITY,
NEW YORK STATE DEPARTMENT
OF CORRECTIONS AND COMMUNITY
SUPERVISION, NEW YORK STATE
DEPARTMENT OF CIVIL SERVICE,
CSEA, INC.,
Defendants.

17-cv-8806 (NSR)
OPINION & ORDER

NELSON S. ROMAN, District Court Judge
On or about November 13,2017, Plaintiff Shirley Dimps commenced this pro se action
asserting claims, inter alia, pursuant to Title VII of the Civil Rights Act of 1964,42 U.S.C. §
2000e, etseq. (“Title VII”), 42 U.S.C. § 1981, the Age Discrimination in Employment Act
(“ADEA”), Americans with Disabilities Act (“ADA”), New York State Human Rights Law
(“NYSHRL”), New York City Human Rights Law (“NYCHRL”), and a breach of contract
claim. Plaintiff alleges that over the past decade she has been denied promotions on the basis of
race, age, and disability and was subjected to a hostile work environment and retaliated against
by her employer the New York State Department of Corrections and Community Service
(“DOCCS”) while employed at the Taconic Correctional Facility (“Taconic”).1 Plaintiff also
asserts similar claims of discrimination based on race, age and disability against New York State
Department of Civil Service (“DCS”), the state agency responsible for administering the civil
service promotional exams. Herein after, Defendants DOCCS, Taconic and DCS will
collectively be referred to as the “Defendants.” Before the Court are Defendants’ Motion to

Plaintiffs initial complaint was filed on November 13,2017. (ECF No. 1). Plaintiff subsequently filed an
Amended Complaint on January 29,2018. The Amended Complaint is deemed the operative complaint for the
purposes of this motion.
i

1

(g)

i

Case 7:17-cv-08806-NSR Document 71 Filed 03/20/19 Page 2 of 18

Dismiss the Complaint pursuant to Federal Rules of Civil Procedure 12(b)(1) (“Rule 12(b)(1)”)
and 12(b)(6) (“Rule 12(b)(6)”). (ECF Nos. 26, 56 For the following reasons, Defendants’ Motion
is GRANTED.
BACKGROUND
Plaintiff is a 64 year old African American female who suffers from hearing loss. (Am.
Compl. at 4, ECF No. 4.) She has been working at Taconic for over 10 years. (Am. Compl. % 3)
Despite suffering from hearing loss, Taconic failed to provide Plaintiff with an accommodation.
(Id. at 1) She alleges that due to the discriminatory practices of the Defendants she has been
passed over for promotions due to age, race, and disability. (Id. at f 2-3) Prior to commencing
the instant lawsuit, Plaintiff filed a complaint with the EEOC by a letter dated August 3, 2016.
(See Am. Compl. 13 of 23) Plaintiff received notice of her right to sue from the EEOC on August
21,2017. (See id. at 17-18 of 23).
STANDARD OF REVIEW
A.

Rule 12(b)(6)
To withstand a motion to dismiss under Rule 12(b)(6), a complaint must contain

“sufficient factual matter, accepted as true, ‘to state a claim that is plausible on its face.’”
Ashcroft v. Iqbal, 556 U.S. 662,678 (2009). “A claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw a reasonable inference that the defendant is
liable for the misconduct alleged.” Id. While the court must accept all of the allegations in the
complaint as true, the court is not “bound to accept as true legal conclusions couched as factual
allegations.” Id. A plaintiff “armed with nothing more than conclusions” does not unlock the
doors to discovery. Id. Determining whether a complaint states a plausible claim for relief is a
2
&

Case 7:17-cv-08806-NSR Document 71 Filed 03/20/19 Page 3 of 18

context-specific task for the court “that requires the reviewing court to draw on its judicial
experience and common sense.” Id. at 679. However, the “submissions of a pro se litigant must
be construed liberally and interpreted ‘to raise the strongest arguments that they suggest.”’
Triestman v. Fed. Bureau ofPrisons, 470 F.3d 471, 474 (2d Cir. 2006). In deciding a motion to
dismiss, a motion “court may consider the facts as asserted within the four comers of the
complaint together with the documents attached to the complaint as exhibits, and any documents
incorporated in the complaint by reference.” Peter F. Gaito Architecture, LLC v. Simone Dev.
Corp., 602 F.3d 57, 64 (2d Cir. 2010) (internal quotation marks and citation omitted). Courts
also may consider “matters of which judicial notice may be taken” and “documents either in
plaintiff [’s] possession or of which plaintiff[] had knowledge and relied on in bringing suit.”
Brass v. Am. Film Techs., Inc., 987 F.2d 142,150 (2d Cir. 1993).
B.

Rule 12(b)(1)
The standard for a Rule 12(b)(1) motion to dismiss for lack of subject matter jurisdiction

is “substantively identical” to the standard for dismissal under 12(b)(6). Lerner v. Fleet Bank,
N.A., 318 F,3d 113,128 (2d Cir. 2003). Under Rule 12(b)(1), “a case is properly dismissed for
subject matter jurisdiction... when the district court lacks the statutory or constitutional power to
adjudicate it.” Makarova v. United States, 201 F.3d 110, 113 (2d Cir. 2000). In resolving a
12(b)(1) motion to dismiss, the court may refer to evidence outside the pleadings. Id. “The
plaintiff asserting subject matter jurisdiction has the burden of proving by a preponderance of the
evidence that it exists.” Id. In assessing whether there is subject matter jurisdiction, the Court
“must accept as true all material facts alleged in the complaint and draw all reasonable inferences
in the plaintiffs favor.” Conyers v. Rossides, 558 F.3d 137,143 (2d Cir. 2009). “The party
invoking federal jurisdiction bears the burden of establishing that jurisdiction exists.” Id.
3

Case 7:17-cv-08806-NSR Document 71 Filed 03/20/19 Page 4 of 18

DISCUSSION
Defendants first argue that Taconic should be dismissed because it is not a distinct legal
entity. (Mem. of Law in Support of Mot. to Dismiss Am. Compl. (“Def. Mot.”) 4, ECF No. 50)
Second, the Defendants argue that Plaintiffs Title VII claims fail to state a plausible claim upon
which relief can be granted. (Def. Mot. 6-10) Finally, the Defendants argue that the Plaintiffs
non-Title VH claims, including the ADA, ADEA, 42 U.S.C. § 1981 and state law claims are
barred by the Eleventh Amendment. (Def. Mot. 5-6) This Court agrees.
I.

Taconic Correctional Facility
Defendants assert that Taconic should be dismissed as a matter of law because it is not a

distinct legal entity capable of being sued. (Def. Mot. 4.) In a letter seeking to add respondents to
the August 2016 EEOC charge, Plaintiff herself contends that Taconic is a facility under DOCCS
which is governed by DCS. (See Am. Compl. 21 of 23.) As a state correctional facility has no
separate legal status from the agency that operates it, the Plaintiff herein is an employee of
DOCCS who is assigned to Taconic. See Rivera v. Goord, 119 F. Supp. 2d 327, 336 (S.D.N.Y.
2000); Trail v. New York State Dep’t of Corr. & Cmty. Supervision, No. 17-CV-7273,2018 U.S.
Dist. LEXIS 131163, at *2-*3 (S.D.N.Y. Aug. 3,2018) (dismissing Taconic Correctional
Facility as a defendant because it is not a distinct legal entity); Davis v. City of New York, No.
96-CV-2998, 1998 U.S. Dist. LEXIS 668, at *6 (S.D.N.Y. Jan. 20,1998) (dismissing claims
against a correctional facility because it is not a “suable entity”); 7 N. Y. Comp. Codes R. &
Regs. § 100.82 (2019).2 Accordingly, Taconic is not a proper entity subject to being sued and all
claims asserted against it must be dismissed.
2 See also Alfano v. Costello, 294 F.3d. 365,369 (2d Cir. 2002) (describing DOCS as a correction officer’s
employer); Eusanio v. Wende C.F., No. 97-cv-0023,1997 WL 374209, at *1 (W.D.N.Y. June 17, 1997) (dismissing
an ADA complaint against a correctional facility because the plaintiffs employer was “not [the facility] but rather
DOCS”).

4

as

Case 7:17-cv-08806-NSR Document 71 Filed 03/20/19 Page 5 of 18

H.

Exhaustion
Plaintiffs asserting Title VII, ADA, or ADEA claims must first exhaust their

administrative remedies by filing a complaint with the EEOC or the equivalent state agency and
obtainment of a notice of right-to-sue before filing in federal court. Williams v. N. Y. City Hous.
Auth., 458 F.3d 67,69 (2d Cir. 2006); 42 U.S.C. § 2000e-5(e)(l).3 Exhaustion of remedies is a
precondition to suit, rather than a jurisdictional requirement. Young v. Lord & Taylor, LLC, 937
F. Supp. 2d 346, 352 (E.D.N.Y. 2013) citing Francis v. City of New York, 235 F.3d 763, 768 (2d
Cir.2000). Generally, a plaintiff may only pursue those claims in a district court complaint which
were either included in or are “reasonably related to” the allegations contained in her EEOC
charge(s). Holtz v. Rockefeller & Co., Inc., 258 F.3d 62, 83 (2d Cir. 2001). Claims “reasonably
related” to the EEOC charge(s) include: (1) where the conduct complained of would fall within
the “scope of the EEOC investigation which can reasonably be expected to grow out of the
charge of discrimination”; (2) a claim “alleging retaliation by an employer against an employee
for filing an EEOC charge”; and (3) where the “plaintiff alleges further incidents of
discrimination carried out in precisely the same manner alleged in the EEOC charge.” Young v.
Lord & Taylor, LLC, 937 F. Supp. at 352 citing Butts v. City of New York Dep't ofHous. Pres. &
Dev., 990 F.2d 1397,1401 (2d Cir. 1993), superseded by statute on other grounds Hawkins v.
1115 Legal Serv. Care, 163 F.3d 684, 693 (2d Cir. 1998) and Malarkey v. Texaco, Inc., 983 F.2d
1204, 1208 (2d Cir. 1993).
Claims sounding in discrimination pursuant to Title VII, ADA and ADEA are deemed
timely if they are filed with the administrative agency within 300 days of an alleged unlawful
3 See also Legnani v. Alitalia Linee Aeree Italiane, S.P.A., 274 F.3d 683, 686 (2d Cir. 2001) (“Under both Title VI1
and ADEA, a claimant may bring suit in federal court only if she has filed a timely complaint with the EEOC and
obtained a right-to-sue letter.); Mclnemey v. Rensselaer Polytechnic Inst., 505 F.3d 135, 138 (2d Cir. 2007) (stating
ADA Title I incorporates various provisions from Title VII including administrative-exhaustion with the EEOC).

5

Case 7:17-cv-08806-NSR Document 71 Filed 03/20/19 Page 6 of 18

practice. See AMTRAK v. Morgan, 536 U.S. 101,109 (2002); Williams, 458 F.3d at 69 (stating
that a Title VII claimant must make an EEOC filing within 300 days of the alleged
discriminatory conduct); Troegerv. Ellenville Cent. Sch. Dist., 523 F. App’x. 848, 851 (2d Cir.
2013) (“It is undisputed that a claimant pursuing claims under the ADA must file charges with
the EEOC within 300 days of the purportedly unlawful acts.); Harris v. City ofNew York, 186
F.3d 243,247 (2d Cir. 1999) (same); 42 U.S.C. § 2000e-5(e)(l); Kassner v. 2ndAve.
Delicatessen Inc., 496 F.3d 229,237-38 (2d Cir. 2007) (A plaintiff seeking to recover under the
ADEA must file a discrimination charge with a state agency within 300 days of the occurrence of
the allegedly unlawful employment practice); 29 U.S.C. § 626(d)(2).
Plaintiff asserts she filed her complaint with the EEOC on August 3, 2017.4 (Am. Compl.
at 6.) On August 16,2017, the EEOC issued Plaintiff notice of her right to sue. {Id. at 17-18 of
23) Her right to sue letter indicates that she alleged claims of discrimination under Title VII, the
ADA and ADEA against Taconic. Defendants contend that the Plaintiffs August 2017 EEOC
charge is untimely because her amended complaint refers to over a decade of alleged
misconduct. (Def. Mot. 7.) This Court agrees.
The Court notes that Plaintiff incorrectly identified Taconic, an entity not subject to being
sued, as her employer in her complaint letter to the EEOC. The EEOC’s right to sue letter
indicates Plaintiff made complaints against Taconic alleging discrimination in violation of the
ADA, ADEA and Title VII. The EEOC documents indicate Plaintiff did not name DOCCS or

4 The Court notes that the Plaintiff did not include the August 2016 EEOC charge in her Amended Complaint which
would have provided the specific claims against the Defendants. However, the right-to-sue letter indicates that the
EEOC foiled to find Taconic in violation of the ADA, ADEA, or Title VII. {See ECF. No. 4-18). Plaintiff s amended
complaint also includes a letter to the EEOC dated Sept. 8,2017 indicating that she alleged discrimination on the
basis of Title VII, ADA, and ADEA. {See ECF. No. 4-21) Thus, liberally construing the Plaintiffs complaint and
granting leniency to her pro se status, the Court finds that the Plaintiff alleged Title VII, ADA, and ADEA claims in
her August 2016 EEOC charge.

6

Case 7:17-cv-08806-NSR Document 71 Filed 03/20/19 Page 7 of 18

DSC in her charge letter. In her amended complaint, Plaintiff makes multiple conclusory
allegations of discrimination on the basis of race, age, and disability. Plaintiff broadly asserts that
she has been passed over for promotions “for nearly/more than a decade” in favor of younger
employees but fails to specify any jobs to which she applied and was rejected. (See Am. Compl.
U 2.) She claims that the DCS civil service exam is discriminatory and alleges that the she has
been a victim of the “One in Three Rule” which allows employers to promote lower-scoring
individuals. (See Am. Compl. f 8-10) She identifies DSC as the state authority responsible for
developing and administering examinations for civil service positions. (Id.) She does not,
however, identify DSC as her employer. She also fails to provide any other relevant facts such as
which civil service exam(s) she has taken, her exam results, the positions she has applied for,
whether or not she was qualified, her eligibility, or any details about the individuals that were
allegedly promoted in her stead. (Id.)
Plaintiff alleges she made an accommodation request for her hearing loss, was denied an
accommodation, and was subjected to retaliation. (Am. Compl. f 1) She provides no other
information supporting this claim such as when she made the request for an accommodation, the
type of accommodation requested, to whom she made the request, and what if any response she
received from her employer. Plaintiffs retaliation claim for seeking an accommodation is
likewise conclusory in nature, failing to provide sufficient factual support. Plaintiff does not
provide any date(s), how she was retaliated against, nor does she provide facts to show a causal
connection between the plaintiffs protected activity and the adverse employment action.
Plaintiffs failure to provide dates is problematic. Without the benefit of the dates, it is
impossible to determine whether any of the claims alleged in her August 3,2016 EEOC charge
letter were timely. To the extent Plaintiff asserts claims pursuant to ADA, ADEA and Title VII
7

Case 7:17-cv-08806-NSR Document 71 Filed 03/20/19 Page 8 of 18

(and related claims) that accrued more than three (300) days before August 3,2017, the Court
finds that Plaintiff failed to timely exhaust her administrative remedies for said claims. Similarly,
to the extent Plaintiff failed to name DOCCS as a defendant in her EEOC charge letter, the Court
finds Plaintiff failed to exhaust her administrative remedies.
A.

Title VII: Failure to Promote
In order to establish a claim for the failure to promote, a Title VII Plaintiff must

demonstrate: (1) that she is a member of a protected class; (2) that she applied and was qualified
for the position in question; (3) that she was rejected for the position; and (4) that the position
remained open and the employer continued to seek applicants having the plaintiffs
qualifications, McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802 (1973); Brown v. Coach
Stores, 163 F.3d 706, 709 (2d Cir. 1998). If the plaintiff succeeds in establishing a prime facie
case, the burden then shifts to the defendant “to articulate some non-discriminatory reason for
the plaintiffs rejection.” McDonnell Douglas, 411 U.S. at 802. Should the defendant carry this
burden, the plaintiff has an opportunity to prove that the defendant’s reasons were illegitimate
and a pretext for discrimination. Id. at 804.
The Defendants do not argue that Plaintiff meets the first element of her claim. Plaintiff is
an African American female, approximately sixty-four (64) years old and purports to suffer from
hearing loss in both ears. Defendants contend that Plaintiff is unable to meet the requisite four
remaining elements. (Def. Mot. 7.) Plaintiff states in conclusory fashion that she was denied
unidentified promotions due to her age because of Defendants’ bias toward younger employees.
(See Am. Compl. f 3) However, Plaintiff fails to identify any of the positions she applied for, the
exams she purportedly took and passed, how she was qualified, if and when she was rejected for
a position, the individuals that were promoted in her stead and their age, or whether the
8

©

Case 7:17-cv-08806-NSR Document 71 Filed 03/20/19 Page 9 of 18

position(s) remained open and Defendants continued to seek applicants having her qualifications.
Thus, her allegations fail to meet the requisite elements to establish a plausible claim for failure
to promote. Accordingly, Plaintiffs claim must be dismissed.
B.

Title VII: Hostile Work Environment
In order to prevail on a hostile work environment claim, a Plaintiff must demonstrate:

“(1) that the harassment was ‘sufficiently severe or pervasive to alter the conditions of the*
victim’s employment and create an abusive working environment,’ and (2) that a specific basis
exists for imputing the objectionable conduct to the employer.” Alfano v. Costello, 294 F.3d 365,
373 (2d Cir. 2005). The test is both objective and subjective. See id. at 374; Harris v. Forklift
Sys., 510 U.S. 17,21 (1993). “The misconduct must be ‘severe or pervasive enough to create an
objectively hostile or abusive work environment,’ and the victim must also subjectively perceive
that environment to be abusive.” Alfano, 294 F.3d at 374 citing Harris, 510 U.S. at 21. Further,
in order for incidents to be deemed pervasive, they must be more than episodic and “sufficiently
continuous and concerted.” Perry v. Ethan Allen, Inc., 115 F.3d 143,149 (2d Cir. 1997); Kotcher
v. Rosa & Sullivan Appliance Center, Inc., 957 F.2d 59, 62 (2d Cir. 1992); Lopez v. S.B. Thomas,
Inc., 831 F.2d 1184,1189 (2d Cir. 1987). Isolated acts will not meet the threshold unless the
single act is “severe enough” to establish a hostile working environment. Brennan v.
Metropolitan Opera Ass 'n, 192 F.3d 310, 318 (2d Cir. 1999). Thus, “a plaintiff alleging a hostile
work environment ‘must demonstrate either that a single incident was extraordinarily severe, or
that a series of incidents were sufficiently continuous and concerted’ to have altered the
conditions of her working environment.” Alfano, 294 F.3d at 374 citing Cruz v. Coach Stores,
Inc., 202 F. 3d 560,570 (2d Cir. 2002).

9

Case 7:17-cv-08806-NSR Document 71 Filed 03/20/19 Page 10 of 18

The Defendants assert that the Plaintiffs claim should be dismissed because she fails to
allege any severe or pervasive harassment or connect any alleged harassment to her race, age, or
disability. (Def. Mot. 8) This Court agrees. The Plaintiffs amended complaint is unsupported by
any factual allegations giving rise to her claim. Plaintiff merely states that she has been “treated
[disparately] than other similarly] situated employees at TCF who were not African
Americans.” (See Am. Compl. at f 2) Accordingly, the Court finds that Plaintiff failed to
sufficiently plead a plausible hostile work environment claim and it must be dismissed.
C.

Title VII: Retaliation
In order to establish a claim for retaliation under Title VII, the Plaintiff must allege: (1)

that she engaged in a protected activity; (2) that the defendant knew she engaged in a protected
activity; (3) that the defendant took an adverse employment action against her; and (4) that there
was a causal connection between the plaintiffs protected activity and the adverse employment
action. Jute v. Hamilton, 420 F.3d 166, 173 (2d Cir. 2005). “The term ‘protected activity’ refers
to action taken to protest or oppose statutorily prohibited discrimination.” Cruz v. Coach Stores,
Inc., 202 F.3d 560, 566 (2d Cir. 2000). Section 704(a) of Title VII, which contains both an
opposition and participation clause, makes it unlawful for an employer to retaliate against an
individual “because he has opposed any practice made an unlawful employment practice by this
subchapter, or because he has made a charge, testified, assisted, or participated in any manner in
an investigation, proceeding, or hearing under this subchapter.” Townsend v. Benjamin Enters.,
679 F.3d 41,48 (2d Cir. 2012); Littlejohn v. City ofNew York, 795 F.3d 297 (2d Cir. 2015)
(same); 42 U.S.C. § 2000e-3(a)). An actionable adverse employment action is “a materially
significant disadvantage with respect to the terms of the plaintiffs employment.” Williams v.
R.H. Donnelly, Corp., 368 F.3d 123,128 (2d Cir. 2004); see also Galabya v. New YorkBd. of
10

Case 7:17-cv-08806-NSR Document 71 Filed 03/20/19 Page 11 of 18

Educ., 202 F.3d 636,640 (2d Cir. 2000) (“A materially adverse change might be indicated by
termination of employment, a demotion evidenced by decrease in wage or salary, a less
distinguished title, a material loss of benefits... or other indices.. .unique to the situation).
Plaintiff broadly asserts that she faced retaliation due to her disability and
accommodation request. (Am. Compl. If 1) The Defendants argue that the Plaintiff has failed to
identify her involvement in a protected activity or identify an individual that was part of the
alleged retaliatory decision to “pass over” her for promotions. (Def. Mot. 9) Further, Defendants
contend there are no facts showing a causal connection because the Plaintiff has failed to identify
a time frame for these actions. (Id.) This Court agrees. Her claim is merely asserted in a
conclusory fashion. Thus, the retaliation claim must be dismissed.
III.

ADA: Failure to Accommodate Claim
While the Court has already found that the Plaintiff failed to timely exhaust her ADA

claim, it will nevertheless explain why the Plaintiffs amended complaint failed to sufficiently
plead a plausible claim for failure to accommodate. To establish a claim for failure to
accommodate, a plaintiff must allege “(1) [s]he is disabled within the meaning of the ADA; (2)
[her] employer is a covered entity; (3) [s]he could perform the essential functions of the job with
an accommodation; and (4) the defendants refused to provide such an accommodation despite
being on notice.” Fox v. Costco Wholesale Corp., No. 17-cv-0936,2019 U.S. App. LEXIS 6714,
at *14 (2d Cir. Mar. 6,2019); McBride v. BIC Consumer Prods. Mfg. Co., Inc., 583 F.3d 92, 9697 (2d Cir. 2009). For an impairment to meet the definition of “disability” under the ADA two
requirements must be met: the impairment must Umit a major life activity and the limitation must
be substantial. Capobianco v. City of New York, 422 F.3d 47, 56 (2d Cir. 2005); 42 U.S.C. §
12102(2)(A). The EEOC defines “major life activities” as “functions such as caring for oneself,
11

Case 7:17-cv-08806-NSR Document 71 Filed 03/20/19 Page 12 of 18

performing manual tasks, walking, seeing, hearing, speaking, breathing, learning, and working.”
Id. quoting 29 C.F.R. §1630.2(i); see also EEOC v. J.B. Hunt Transp., Inc., 321 F.3d 69, 74 (2d
Cir. 2003) (same). The term “essential functions,” while not defined by statue, is generally
defined to mean “duties to be performed in the position in question, but not functions that are
merely ‘marginal.’” Kinneary v. City of New York, 601 F.3d 151, 156 (2d Cir. 2010) citing Stone
v. City ofMount Vernon, 118 F.3d 92, 97 (2d Cir. 1997).
The Plaintiff suffers from hearing loss in both ears (Am. Compl. 4) and states in a
conclusory fashion that the instant lawsuit stems from Defendant’s retaliation of her
accommodation request. (Am. Compl. Tf 1) For purposes of the ADA, a disability is defined as “a
physical or mental impairment that substantially limits one or more major life activities of such
individual,” “a record of such an impairment;” or “being regarded as having such an
impairment.” 42 U.S.C. § 12102(1)(A)-(C). Hearing loss is major life activity within the
meaning of the ADA (see Fall v. New York State United Teachers, 289 F. App'x 419,421 (2d
Cir. 2008)), however, Plaintiff does not indicate the extent of her hearing loss. Fall v. New York
State United Teachers, 289 F. App'x at 421 (2d Cir. 2008) (Granting of summary judgment to
defendant due to plaintiff failure to proffer evidence demonstrating the extent of her hearing loss
was substantial.) Her Amended complaint merely indicates she suffer from hearing loss in both
ears.
Even assuming Plaintiff’s claim of a hearing loss is sufficient to the extent that the facts
support a finding that her alleged disability is substantial, Plaintiff’s claims still fails. Plaintiff
does not identify facts about her position, what if any accommodation she requested, whether she
can perform the essential functions of her job with an accommodation and whether or not her

12

Case 7:17-cv-08806-NSR Document 71 Filed 03/20/19 Page 13 of 18

employer was put on notice of her disability.5 Other than to state that Taconic and DOCCS
discriminated against Plaintiff due to disability (hearing loss), retaliated against her in response
to her request for an accommodation, the Amended Complaint is void of any facts supporting a
plausible claim. Accordingly, Plaintiff’s failure to accommodate claim must be dismissed.
IV.

ADEA: Age Discrimination Claim
The ADEA makes it unlawful for an employer to discriminate against an individual aged

40 or older “with respect to his compensation, terms, conditions, or privileges of employment,
because of such individual’s age.” Tarshis v. Riese Org., 211 F.3d 30, 35 (2d Cir. 2000); 29
U.S.C. § 623(a)(1). In order to establish a claim under the ADEA, a plaintiff must show: (1) she
was within the protected age group; (2) she was qualified for the position at issue; (3) she
suffered an adverse employment decision, and (4) the decision/discharge took place under
circumstances giving rise to an inference of discrimination.6 Id.\ Austin v. Ford Models, Inc., 149
F.3d 148,152 (2d Cir. 1998); Woroski v. Nashua Corp., 31 F.3d 105, 108 (2d Cir. 1994). The
evidence necessary to satisfy this initial burden is minimal. Carlton v. Mystic Transp., Inc., 202
F. 3d 129,134 (2d Cir. 2000).
While the Plaintiff meets the first element, she fails to satisfy the remaining pleading
requirements.7 The Plaintiff asserts that she was denied promotions due to her age for over a
decade. (Am. Compl. f 2) However, Plaintiff fails to indicate whether she passed the requisite

5 See Fox v. Costco Wholesale Corp.. No. 17-cv-0936,2019 U.S. App. LEXIS 6714, at *14 (2d Cir. Mar. 6,2019)
(dismissing Plaintiffs failure to accommodate claim because the Defendants were not put on notice that Plaintiffs
neurological condition would be worsened by being transferred to a position he previously held); Ray v. Weit, 708
Fed. App’x. 719,721 (2d Cir. 2017) (finding that dismissal of the Appellant’s claim was proper because the
accommodations she requested had nothing to do with the ability to perform the essential functions of her job).
6 The McDonnell-Douglas burden shifting analysis (discussed in Part II. A supra) is “the Supreme Court’s own
example of facts sufficient, in the Supreme Court’s own words to give rise to an inference of unlawful
discrimination.” Fisher v. Vassar College, 114 F.3d 1332,1367, n.l (2d Cir. 1997); see also Bymie v. Town of
Cromwell Bd. ofEduc., 24 F.3d 93,101 (2d Cir. 2001) (stating that a plaintiff alleging a violation of either age or
sex discrimination utilizes the same McDonnell-Douglas burden shifting framework).
7 Plaintiff is 64 years old. {See Am. Compl. at ^ 3)

13

Case 7:17-cv-08806-NSR Document 71 Filed 03/20/19 Page 14 of 18

civil service exams. (Am. Compl. f 9) The amended complaint lacks any specifications regarding
the promotions such as what the position was, when she applied, how she was qualified, or any
facts regarding the individuals that were promoted. Lastly, Plaintiff fails to assert facts, other
than in conclusory fashion, that the decision not to promote was made under circumstances
giving rise to an inference of discrimination. Accordingly, the Court finds that the ADEA claim
must be dismissed.
V.

42 U.S.C. § 1981
To establish a claim under 42 U.S.C. § 1981, plaintiffs must allege: (1) that they are a

member of a protected class; (2) the defendant’s intent to discriminate on the basis of race and;
(3) discrimination concerning one of the statutes enumerated activities. Brown v. City of
Oneonta, 221 F.3d 329, 339 (2d Cir. 1999). Under Section 1981, only intentional racial
discrimination is prohibited. Id.; see also Albert v. Carovano, 851 F.2d 561 (2d Cir. 1988)
(“Essential to an allegation under Section 1981 are allegations that the defendant’s acts were
purposefully discriminatory and racially motivated.”) (internal citations omitted). The statutes’
“enumerated activities” include rights “to make and enforce contracts, to sue, be parties, give
evidence, and to the full and equal benefit of all the laws and proceedings for the security of
persons and property.” Brown, 221 F.3d at 339 quoting 42 U.S.C. § 1981. To survive a motion to
dismiss, a plaintiff asserting a 42 U.S.C. § 1981 claim must specifically allege the events claimed
to constitute intentional discrimination as well as circumstances giving rise to a plausible
inference of racially discriminatory intent. Mahmud v. Kaufmann, 496 F. Supp. 2d 266, 272-73
(S.D.N.Y. 2007); Yusufv. Vassar Coll., 35 F.3d 709, 713 (2d Cir.1994); see also Albert v.
Carovano, 851 F.2d 561, 571-72 (2d Cir. 1988). Mere naked assertions lacking facts upon which

14
&

Case 7:17-cv-08806-NSR Document 71 Filed 03/20/19 Page 15 of 18

a court would find a violation of discrimination fails to state a claim under Rule 12(b)(6). See
Martin v. N.Y. State Dep't ofMental Hygiene, 588 F.2d 371, 372 (2d Cir.1978).
Plaintiff asserts in a conclusory fashion that Defendants discriminated against her on the
basis of race by treating her disparately than similarly situated employees that were not African
American. (Am. Compl. f 2) However, she fails to alleged additional facts supporting an
inference of intentional discrimination by Defendants. Moreover, Plaintiff fails to allege
discrimination based on an enumerated activity. Accordingly, the Court finds that the Plaintiff
has failed to plead a plausible claim under 42 U.S.C. § 1981 and thus must be dismissed.
VI.

NYSHRL and NYCHRL Claims
The Plaintiff also raises Title VII, ADA, and ADEA claims under New York State

Human Rights Law, Executive Law § 296 and New York City Human Rights Law,
Administrative Code § 8-107 et seq. (Am. Compl. f 4-5) The pleading standards for employment
discrimination claims raised under NYSHRL mirror the pleading requirements under Title VII,
the ADA, and ADEA. See Pucino v. Verizon Wireless Commc ’ns, Inc., 618 F.3d 112, 117 n.2
(2d Cir. 2010) (“We review discrimination claims brought under NYSHRL according to the
same standards that we apply to Title VII discrimination claims.”); George v. Profl Disposables
Int’l, Inc., No. 15-CV-03385, 2016 U.S. Dist. LEXIS 72912, at *24 (S.D.N.Y. June 1, 2016)
(“The elements of a failure to accommodate claim under the NYHRL mirror those of the ADA”);
Sutera v. Schering Corp., 73 F.3d 13,16, n.2 (2d Cir. 1995) (explaining that ADEA claims under
NYHRL are analyzed using the same McDonnell Douglas burden-shifting framework). As such,
the Court need not undertake a separate analysis of Plaintiff s state law discrimination claims as
their viability is the same as her federal claims. Further, because the Court finds the Plaintiff

15

Case 7:17-cv-08806-NSR Document 71 Filed 03/20/19 Page 16 of 18

failed to plead plausible federal or state causes of action, her NYCHRL claim is also dismissed.
Accordingly, the Court finds that the Plaintiffs state and municipal claims are dismissed.
VII.

Breach of Contract Claim
In order to state a breach of contract claim under New York law in federal court the

plaintiffs complaint need only allege (1) the existence of an agreement; (2) adequate
performance of the contract by the plaintiff, (3) breach by the defendant, and (4) damages. See
Harsco Corp. v. Segui, 91 F.3d 337, 348 (2d Cir. 1996); Tagare v. NYNEXNetwork Sys. Co.,
921 F. Supp. 1146,1149 (S.D.N.Y. 1996). In her Amended Complaint, Plaintiff asserts “[t]he
Breach of Contract under Pendant [Supplemental] Jurisdiction. Related claims under New York
Law.. ..8 {See Am. Compl. f 1) Additionally, in the prayer for relief section, she seeks a
declaratory judgment that Defendants breached their “Contract of Implied Duty of Good Faith
and Fair Dealing.” (Am. Compl. 6A-e), To the extent Plaintiff attempts to allege a breach of
contract claim, such claim fails. Plaintiff does not allege any other facts supporting each of the
elements of a contract cause of action. Plaintiff does not identify which, if any of the named
Defendants breached their duty, whether there was adequate performance by Plaintiff, which acts
constitute a breach, and which agreement.
VIII. Immunity from Non-Title VII Claims
The Defendants assert that the State and its agencies are immune from the Plaintiffs
ADA, ADEA, 42 U.S.C. § 1981, State and City Human Rights Law, and breach of contract
claims. (Def. Mot. 5) Defendants do not contest that the Plaintiffs claims arise under federal
law. (Reply Mem. of Law in Support of Mot. to Dismiss Am. Compl. 2, ECF No. 61)

8 The Plaintiff seems to suggest that the Court has supplemental jurisdiction over her contract claim without
providing any additional facts. {See Am. Compl. U 1)

16

Case 7:17-cv-08806-NSR Document 71 Filed 03/20/19 Page 17 of 18

The Eleventh Amendment bars claims by an individual against a state in federal court
absent waiver or abrogation. Edelman v. Jordan, 415 U.S. 651, 673 (1964); Fitzpatrick v. Bitzer,
427 U.S. 445,451-52 (1976). Immunity applies to claims arising under state and federal law in
the absence of a state statue explicitly waiving the states’ immunity to suit in federal court.
Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89, 99 (1984). This immunity “extends
beyond the states themselves to state agents and state instrumentalities that are, effectively, arms
of the state.” Gollomp v. Spitzer, 568 F.3d 355, 366 (2d Cir. 2009).
To determine whether Congress properly abrogated states’ Eleventh Amendment
Immunity, two questions are asked: (1) did Congress “unequivocally express its intent to
abrogate immunity?” and (2) did Congress act pursuant to constitutional authority? Seminole
Tribe v. Florida, 517 U.S. 44, 55 (1996). Regarding the ADEA, the Supreme Court found the
answer to the first question to be “yes,” stating the plain language of the ADEA “clearly
demonstrates Congress’ intent to subject the States to suit for money damages at the hands of
individual employees.” McGinty v. New York, 251 F.3d 84, 91 (2d Cir. 2001) citing Kimel v. Fla.
Bd. ofRegents, 528 U.S. 62,74 (2000). However, in applying a “congruence and
proportionality” test, the Court found the answer to the second question to be “no” and that states
may discriminate on the basis of age if it is rationally related to a legitimate state interest because
age is not a suspect class. Id. at 91. The following term, the Supreme Court held that Congress
did not act within its constitutional authority by subjecting States to suits in federal court for
money damages under the ADA.9 Bd. ofTrs. v. Garrett, 531 U.S. 356, 374 (2001).
In regard to the NYSHRL claim, “New York has not waived its sovereign immunity from

9 The Plaintiff’s amended complaint requests damages “retroactive to the start date of the unlawful practices and to
otherwise render her whole for all and any losses sustained and suffered as a result of Defendants unlawful
employment practices.” (Am. Compl. 6A-g)

17

Case 7:17-cv-08806-NSR Document 71 Filed 03/20/19 Page 18 of 18

ADA, § 1981... or [New York State Human Rights Law] claims in federal court... nor has
Congress abrogated state sovereign immunity from discrimination claims brought pursuant to the
ADA or § 1981.” Jackson v. Battaglia, 63 F.Supp.3d 214,220 (N.D.N.Y. 2014) (citing collected
cases). Similarly, the Court does not have jurisdiction over the NYCHRL claim because the city
does not have the authority to abrogate the State’s sovereign immunity and the State has not
consented to suit in federal court under NYCHRL. Feingold v. New York, 366 F.3d 138,149 (2d
Cir. 2004).
All of Plaintiffs claims have been dismissed due to Plaintiffs failure to provide facts
supporting essential elements of her claims warranting a finding of plausibility. Nevertheless, the
Court finds that the Defendants would be entitled to dismissal based on qualified immunity for
Plaintiffs ADA, ADEA, 42 U.S.C. § 1981, state, and municipal human rights law, and breach of
contract claims as against the DOCCS and DSC.
CONCLUSION
For the foregoing reasons, Defendants’ Motion to Dismiss is GRANTED in its entirety.
All claims asserted against Defendants DOCCS, Taconic and DSC are deemed dismissed. The
Clerk of the Court is respectfully directed to terminate the motions at ECF Nos. 49 and 56, to
mail a copy of this Opinion to pro se Plaintiff, and to show proof of service on the docket

SO ORDERED:

Dated: March 20,2019
White Plains, New York

NELSON S. ROMAN
United States District Judge

18

!

APPENDIX N
JUDGMENT
3/21/2019

Case 7:17-cv-08806-NSR Document 72
UNI VC SONY

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
■X

DOCUMCNTT
ELECTRONICALLY FILED
DOC if:
DATE FILED: 3^0ll*}

SHIRLEY DIMPS,
Plaintiff,
-against-

17 CIVIL 8806 (NSR)

JUDGMENT
!

TACONIC CORRECTIONAL FACILITY,
NEW YORK STATE DEPARTMENT OF
CORRECTIONS AND COMMUNITY
SUPERVISON, NEW YORK STATE
DEPARTMENT OF CIVIL SERVICE,
CSEA, INC.,
Defendants.
■X

It is hereby ORDERED, ADJUDGED AND DECREED: That for the reasons
stated in the Court's Opinion & Order dated March 20,2019, Defendants’ Motion to Dismiss is
!

GRANTED in its entirety. All claims asserted against Defendants DOCCS, Taconic and DSC are
deemed dismissed.
Dated: New York, New York
March 21,2019

RUBY J. KRAJICK
Clerk of Court
BY:

°&n/trdCko
Deputy Clerk

APPENDIX O
OPINION & ORDER
3/25/2019

Case 7:17-cv-08806-NSR Document73 Filed 03/25/19 Page lot 10

UNITED STATE DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
SHIRLEY DIMPS,
Plaintiff,
17-cv-08806
OPINION & ORDER

-against-

i

TACONIC CORRECTIONAL FACILITY
NYS DEPARTMENT OF CORRECTIONS
AND COMMUNITY SUPERVISION, NYS
DEPARTMENT OF CIVIL SERVICE, and CSEA, INC.,

i

Defendants.
I
;

NELSON S. ROMAN, United States District Judge
Plaintiff Shirley Dimps (“Plaintiff’) commenced this action asserting claims, inter alia,
against her union, Defendant Civil Service Employees Association, Inc., Local 1000, AFSCME,
AFL-CIO (hereinafter referenced as “CSEA” or “Defendant”), for an alleged breached of its duty of
fair representation. (ECF No. 4, Am. Compl.) Plaintiff alleges that she was discriminated against by
her employer, the New York State Department of Corrections and Community Supervision
(“DOCCS”), and the New York State Department of Civil Service (“DCS”) while employed at the
Taconic Correctional Facility (“Taconic”). Plaintiff alleges CSEA purportedly failed to fairly and in
good faith represent and/or advocate on her behalf in her employment grievances. {See Am. Compl.,
If 11-12.) Presently before the Court is Defendant CSEA’s motion to dismiss all claims asserted

;

against it pursuant to Fed. R. Civ. P. §§ 12(b)(1) (“Rule 12(b)(1)”) and (6) (“Rule 12(b)(6)”). (ECF
No. 22.) For the following reasons, Defendant’s motion is GRANTED.
iv---"

•| m .:,2 ' vi 'v
II .

ll ELECTRONICALLY FHAY; iif
?
•i

1
~\
&

Case 7:17-cv-08806-NSR Document 73 Filed 03/25/19 Page 2 of 10

PROCEDURAL HISTORY
Plaintiff commenced this action on or about November 13,2017 asserting federal and state
law claims for discrimination and hostile work environment under Title VII, 42 U.S.C. §§ 2000e to
2000e-17; 42 U.S.C. § 1981; 29 U.S.C. §§ 621-634; and 42 U.S.C. §§ 12101-12213; N.Y. Exec.
Law §§ 290-297, and N.Y. City Admin. Code §§ 8-101 to 131 against Taconic. (ECF No. 1,
Compl.) On January 29,2018, Plaintiff filed an amended complaint asserting similar claims of
discrimination and hostile work environment against Taconic, DOCCS and DCS,1 and for unfair
representation against CSEA. (See Am. Compl., ^ 1-11.) Plaintiff alleges that her employees)
failed to promote her due to her race, age and disability, failed to provide an accommodation based
on a disability, retaliated against her, and harassed her and/or created a hostile work environment.
(Id.) Plaintiff alleges that she filed grievances with CSEA and that the grievances were denied. (Id.)
Plaintiffs unfair representation claims are asserted pursuant to the New York Civil Service
Law (“N.Y. Civ. Serv. Law”) § 200, et seq. (the “Taylor Law”). Plaintiff asserts that CSEA
breached its duty of fair representation when she complained of discrimination, harassment and
retaliation at her place of employment, Taconic. Defendant CSEA moves to dismiss all claims
against it on the basis of lack of subject matter jurisdiction, Rule 12(b)(1), and failure to state a
claim upon which relief may be granted, Rule 12(b)(6).
RELEVANT LAW
I.

Rule 12(b)(1)
A challenge to a federal court’s subject matter jurisdiction is properly raised by way of a

Rule 12(b)(1) motion. Morrison v. Nat'l Australia Bank Ltd., 547 F.3d 167, 170 (2d Cir. 2008),
affd, 561 U.S. 247 (2010); Alliance for Envt'l Renewal, Inc. v. Pyramid Crossgates Co., 436 F.3d

The nature of Plaintiffs claims against her employer are provided for background information only.
2

Case 7:17-cv-08806-NSR Document 73 Filed 03/25/19 Page 3 of 10

82, 87-88 (2d Cir. 2006). “A ‘case is properly dismissed for lack of subject matter jurisdiction under
Rule 12(b)(1) when the district court lacks the statutory or constitutional power to adjudicate it.”
Nike, Inc. v. Already, LLC, 663 F.3d 89, 94 (2d Cir. 2011) (citing Markarova v. United States, 201
F.3d 110,113 (2d Cir 2000)). Without jurisdiction, the Court is devoid of the “power to adjudicate
the merits of the case” and for that reason, a court must decide a Rule 12(b)(1) motion before any
motion on the merits. Carter v. HealthPort Tech., LLC, 822 F.3d 47, 55 (2d Cir. 2016). “A plaintiff
asserting subject matter jurisdiction has the burden of proving by a preponderance of the evidence
that it exists.” Morrison, 547 F.3d at 170. While a Court must accept all factual allegations in
Plaintiffs complaint as true, a jurisdictional showing must be made affirmatively; “it is not made by
drawing from the pleadings inferences favorable to the party asserting it.” Id. When reviewing a
motion to dismiss for lack of subject matter jurisdiction, the court may consider evidence outside
the pleadings. See Makarova, 201 F.3d at 113.
Federal courts have typically exercised jurisdiction over state court claims pursuant to
diversity jurisdiction (28 U:S.C. § 1332) or supplemental jurisdiction (28 U.S.C. § 1367). Diversity
jurisdiction involves actions between citizens of different States, citizens of a State and citizens or
subjects of a foreign state or citizens of different States and in which citizens or subjects of a
foreign state are additional parties. Coudert Bros. v. EasyflndInt'l, Inc., 601 F. Supp. 525, 526
(S.D.N.Y. 1985); 28 U.S.C. § 1332(a). Supplemental jurisdiction [formerly referred to as Pendent
jurisdiction] is the authority of a federal court to exercise jurisdiction over a nonfederal claim
between parties litigating other matters properly before the court, or the addition of an independent
party when the claim against that party arises out of the same common nucleus of operative facts as
the claims against the other named parties. Exxon Mobil Corp. v. Allapattah Servs., Inc., 545 U.S.
546 (2005); Finley v. United States, 490 U.S. 545,548-49 (1989) (citing United Mine Workers of

3

Case 7:17-cv-08806-NSR Document 73 Filed 03/25/19 Page 4 of 10

Am. v. Gibbs, 383 U.S. 715 (1966)); 28 U.S.C. § 1367(a). The Court in Mine Workers held that
“[Supplemental] jurisdiction, in the sense of judicial power, exists whenever there is a claim
‘arising under [the] Constitution, the Laws of the United States...,’ and the relationship between that
claim and the state claim permits the conclusion that the entire action before the court comprises but
one constitutional ‘case.’” Id. at 725. The requisite relationship exists when the federal and
nonfederal claims “derive from a common nucleus of operative fact” and are such that a plaintiff
“would ordinarily be expected to try them in one judicial proceeding.” Finley, 490 U.S. at 548-49.
A federal court may properly dismiss a claim for which it originally had supplemental jurisdiction if
“the district court has dismissed all claims over which it has original jurisdiction.” 28 U.S.C. §
1367. Federal courts have held that claims raising novel and complex questions of state law are
better left for the state courts to resolve and have generally declined to exercise jurisdiction. See
Donohue v. Mangano, 886 F. Supp. 2d 126, 148 (E.D.N.Y. 2012) citing Seabrook v. Jacobson, 153
F.3d 70, 71 (2d Cir. 1998).
The Taylor Law, formerly known as the New York State Public Employees' Fair
Employment Act, was enacted to promote harmonious and cooperative relationships between
government and its employees and to protect the public by assuring, at all times, the orderly and
uninterrupted operations and functions of state government. N.Y. Civ. Serv. Law § 200. Plaintiff
asserts that CSEA violated the, N.Y. Civ. Serv. Law §§ 209-a. 2(a), (b), and (c) of the Taylor Law.
N.Y. Civ. Serv. Law § 209-a. 2(a)-(c) provides in relevant part:
It shall be an improper practice for an employee organization or its agents deliberately (a) to
interfere with, restrain or coerce public employees in the exercise of the rights granted in section
two hundred two, or to cause, or attempt to cause, a public employer to do so provided,
however, that an employee organization does not interfere with, restrain or coerce public
employees when it limits its services to and representation of nonmembers in accordance with
this subdivision; (b) to refuse to negotiate collectively in good faith with a public employer,
provided it is the duly recognized or certified representative of the employees of such employer;
or (c) to breach its duty of fair representation to public employees under this article.
4

Case 7:17-cv-08806-NSR Document 73 Filed 03/25/19 Page 5 of 10

Plaintiff's only claim against CSEA, her labor union, is for alleged violation of the Taylor
Law for unfair representation. N.Y. Civ. Serv. Law § 205(5)(d) provides in relevant part that the
New York State Public Relations Board (“PERB”) shall possesses exclusive, primary, non­
delegable jurisdiction over claims asserted under the Taylor Law. See Ifill v. New York State Court
Officers Ass'n, 655 F. Supp. 2d 382, 392 (S.D.N.Y. 2009) citing Zuckerman v. Bd. ofEduc. of City
Sch. Dist. of City of New York, 44 N.Y.2d 336 (1978) (“[A]n improper labor practice ... is within the
exclusive jurisdiction of PERB.”). Accordingly, the Court lacks subject matter jurisdiction to hear
Plaintiffs claim requiring dismissal.
Defendant also seek dismissal of Plaintiff s claim on the basis that the claim is barred by
collateral estoppel and res judicata. Collateral estoppel “precludes a party from relitigating in a
subsequent action or proceeding an issue clearly raised in a prior action or proceeding and decided
against that party or those in privity, whether or not the tribunals or causes of action are the same.”
Ryan v. New York Tel. Co., 62 N.Y.2d 494, 500 (1984). The doctrine of collateral estoppel applies
to quasi-judicial determinations of administrative agencies. Id. at 499; Yoonessi v. State, 289 A.D.2d
998, 999 (4th Dept. 2001).
The doctrine of res judicata, or claim preclusion, holds that “a final judgment on the merits
of an action precludes the parties or their privies from relitigating issues that were or could have
been raised in that action. ” Allen v. McCurry, 449 U.S. 90, 94 (1980); Rates Tech. Inc. v.
Speakeasy, Inc., 685 F.3d 163, 169 (2d Cir. 2012); see also Highlands Ctr., LLC v. Home Depot
U.S.A., Inc., 149 A.D.3d 919, 921 (2d Dept. 2017). To substantiate the defense of res judicata, a
party must show that “(1) the previous action involved an adjudication on the merits; (2) the
previous action involved the parties or those in privity with them; and (3) the claims asserted in the

5

Case 7:17-cv-08806-NSR Document 73 Filed 03/25/19 Page 6 of 10

subsequent action were, or could have been, raised in the prior action.” Graham v. Select Portfolio
Serv., Inc., 156 F. Supp. 3d 491, 509 (S.D.N.Y. 2016) (quoting Pike v. Freeman, 266 F.3d 78, 91
(2d Cir. 2001)). Furthermore, this Court must refer to New York State law “which has adopted a
transactional approach to res judicata, barring a later claim arising out of the same factual grouping
as an earlier litigated claim even if the later claim is based on different legal theories or seeks
dissimilar or additional relief.” Burgos v. Hopkins, 14 F.3d 787, 790 (2d Cir. 1994).
In support of their motion, Defendant cites to Yoonessi to support the argument that
Plaintiffs claim is barred by res judicata. In Yoonessi, the claimant alleged that his union breached
its duty of fair representation by failing to adequately defend him at an arbitration with his employer
and by failing to pursue eight other grievances in arbitration. 289 A.D.2d at 998. The plaintiff in
Yoonessi also filed an improper practice charge with PERB alleging breach of duty of fair
representation. PERB dismissed the charge after concluding that the union did not breached its duty
of fair representation. Id. at 1000.
Defendant asserts that Plaintiff previously filed a complaint with PERB wherein she asserted
similar claims of unfair representation. Purportedly Plaintiffs claims were ultimately dismissed on
June 9,2017. Defendant, however, fails to submit any documentation in support of its contention.
Absent documentation upon which judicial notice may be taken, the Court is unable to determine
the applicability of the doctrine of res judicata or issue preclusion of Plaintiff s claim.
n.

Rule 12(b)(6)
Though the Court need not provide further analysis because Plaintiffs complaint has been

dismissed for a lack of subject matter jurisdiction, pursuant to Rule 12(b)(1), in an abundance of
caution the Court will discuss the applicability of Rule 12(b)(6).

6

Case 7:17-cv-08806-NSR Document 73 Filed 03/25/19 Page 7 of 10

Rule 12(b)(6) provides in relevant part that a complaint may be dismissed it fails to state a
claim upon which relief can be granted. The inquiry is whether the complaint “contain[s] sufficient
factual matter, accepted as true, to ‘state a claim to relief that is plausible on its face.’” Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)).
The Court must accept all facts set forth in the Complaint as true and draw all reasonable inferences
in Plaintiffs favor. See, e.g., Burch v. Pioneer Credit Recovery, Inc., 551 F.3d 122,124 (2d Cir.
2008). A claim is facially plausible “when the plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant is liable for the misconduct alleged.” Iqbal, 556
U.S. at 678 (citing Twombly, 550 U.S. at 556). “Although for the purpose of a motion to dismiss [a
court] must take all of the factual allegations in the complaint as true, [it is] ‘not bound to accept as
true a legal conclusion couched as a factual allegation.’ ” Id. (<quoting Twombly, 550 U.S. at 555). A
court is not required to accept as true legal conclusions, and “[t]hreadbare recitals of a cause of
action, supported by mere conclusory statements, do not suffice.” Id. at 678. It is not necessary for
the complaint to assert “detailed factual allegations,” but must allege “more than labels and
conclusions.” Twombly, 550 U.S at 555.
A pro se complaint is to be read liberally and held to “less stringent standards” than formal
pleadings drafted by lawyers. Haines v. Kemer, 404 U.S. 519, 520 (1972); see also Triestman v.
Fed. Bureau ofPrisons, 470 F.3d 471, 474 (2d Cir. 2006) (noting that “[i]t is well established that
the submissions of a pro se litigant must be construed liberally and interpreted ‘to raise the strongest
arguments that they suggest.’”) Nonetheless, “conclusory allegations or legal conclusions
masquerading as factual conclusions will not suffice to defeat a motion to dismiss.” Achtman v.
Kirby, Mclnemey & Squire, LLP, 464 F.3d 328, 337 (2d Cir. 2006). In addition, even plaintiffs who
are proceeding pro se must comply with any relevant procedural and substantive rules, and, to

7

Case 7:17-cv-08806-NSR Document 73 Filed 03/25/19 Page 8 of 10

survive a motion to dismiss, a pro se complaint, like any other complaint, must plead enough facts
“to ‘state a claim to relief that is plausible on its face.’ ” Iqbal, 556 U.S. at 678. In other words, a
plaintiff is required to amplify a claim with some factual allegations so as to allow the Court to
draw the reasonable inference that the defendant is liable for the alleged conduct. Ajaj v. Fritz, 2011
WL 924213, at *4 (S.D.N.Y. Mar. 16, 2011). In deciding a motion to dismiss, a motion “court may
consider the facts as asserted within the four comers of the complaint together with the documents
attached to the complaint as exhibits, and any documents incorporated in the complaint by
reference.” Peter F. Gaito Architecture, LLC v. Simone Dev. Corp., 602 F.3d 57, 64 (2d Cir. 2010)
(internal quotation marks and citation omitted). Courts also may consider “matters of which judicial
notice may be taken” and “documents either in plaintiff [*s] possession or of which plaintiff[] had
knowledge and relied on in bringing suit.” Brass v. Am. Film Techs., Inc., 987 F.2d 142, 150 (2d
Cir. 1993).
Plaintiff alleges that Defendant CSEA breached its duty of fair representation. A breach of
the statutory duty of fair representation occurs only when a union's conduct toward a member of the
collective bargaining unit is arbitrary, discriminatory, or in bad faith. Vaca v. Sipes, 386 U.S. 171,
190 (1967); see also Civil Serv. BarAss’n v. City ofNew York, 64 N.Y.2d 188 (1984). Allegations
that a union representative negligently gave a union member incorrect advice fails to state cause of
action for breach of duty of fair representation. Smith v. Sipe, 67 N.Y.2d 928 (1986). A bare
statement that union members were treated differently than other union members is not enough to
show unfair representation. Anderson v. AMBAC Indus., Inc., 48 A.D.2d 845, 845 (1975), affd, 40
N.Y.2d 865 (1976). A showing that a union is guilty of mistake, negligence or lack of competence
does not suffice to support a claim of unfair representation. See DeOliveira v. New York State Pub.
Emp’t Relations Bd., 133 A.D.3d 1010,1012 (3d Dept. 2015) (citing Braatz v. Mathison, 180

8

dtu

Case 7:17-cv-08806-NSR Document 73 Filed 03/25/19 Page 9 of 10

A.D.2d 1007, 1008 (3d Dept. 1992) (internal citations omitted)). Factual allegations that the union
unfairly processed the grievance, failed to investigate relevant information, and .misrepresented
claimant's employment records are sufficient to establish conduct on the part of the union that was
arbitrary, discriminatory, or in bad faith Shah v. State, 140 Misc. 2d 16, 21 (Ct. Cl. 1988).
Plaintiffs conclusory allegations lacking in any specificity falls short of demonstrating that CSEA’s
allege failure to represent was arbitrary, discriminatory, or in bad faith.
Additionally, “[a]n individual employee does [not] have an absolute right to have his
grievance taken to arbitration regardless of the provision of the applicable collective bargaining
agreement ” Vaca, 386 U.S. at 191. “A union has discretion with respect to processing grievances
and is not required to pursue every grievance and avail itself of grievance level at its disposal.
Kleinmann v. Bach, 195 A.D.2d 736, 738 (3d Dept. 1993); Mellon v. Benker, 186 A.D.2d 1020,
1021 (4th Dept. 1992). “Mere failure on the part of the union to process a grievance is not per se a
violation of its duty of fair representation.” Mellon, 186 A.D.2d at 1020. CSEA has no duty to
respond to Plaintiffs grievances and ensure that it proceeds through all levels of the grievance
process. CSEA can handle the grievances as it sees fit, as long as there is no “fraud, deceitful action,
or dishonest conduct, or evidence of discrimination that is intentional, severe, and unrelated to
legitimate union objectives.” Mellon, 186 A.D.2d at 1021 (citing Badman v Civil Serv. Empls.
Ass’n, 91 A.D.2d 858 (4th Dept. 1982)). Therefore, Plaintiffs assertion that her grievances have
been denied and not allowed to go to all levels of the grievance process is not sufficient to raise a
plausible cause of action.
III.

Proposed Amended Complaint
In opposition to Defendant’s motion to dismiss, Plaintiff appears to suggest that she wishes

to amend her pleadings. In her proposed amended pleading, Plaintiff requests that the Court grant

9

Case 7:17-cv-08806-NSR Document 73 Filed 03/25/19 Page 10 of 10

her all protections under the Fourteenth Amendment. Her proposed amended pleading, however,

!

contains no factual allegations. (ECF No. 24.) Fed. R. Civ. P. § 15(a)(2) provides that a party shall
be given leave to amend “when justice so requires.” “Leave to amend, though liberally granted, may
properly be denied for: ‘ undue delay, bad faith, or dilatory motive on the part of the movant,
repeated failure to cure deficiencies by amendments previously allowed, undue prejudice to the
opposing party by virtue of allowance of the amendment [and/or] futility of amendment.’” Ruotolo
v. City ofNew York, 514 F.3d 184,191 (2d. Cir. 2008) (citing Forman v. Davis, 371 U.S. 178,182
(1962)). Plaintiffs proposed amendment would be nothing short of futile for all the reasons
previously discussed. Accordingly, Plaintiffs motion to amend her pleadings is denied.
I

CONCLUSION
For the foregoing reasons, Defendant CSEA’s Motion to Dismiss is GRANTED.2 Plaintiffs
attempt to file a Second Amended Complaint is denied. By Opinion dated March 20,2019, the
Court dismissed all claims asserted against Taconic, DOCCS and DCS. (ECF No.71.) The Clerk of
the Court is respectfully directed to terminate the motion at ECF No. 22, to terminate the action, and
to mail a copy of this Opinion and Order to Plaintiff and to show proof on the docket of said
mailing.

SO ORDERED:

Dated: March 25,2019
White Plains, NY

NELSON S. ROMAN
United States District Judge

2 Defendant raises multiple other grounds upon which Plaintiff's operative complaint should be dismissed. For the sake
of judicial economy and restraint, the Court need not address all issues raised.

10

APPENDIX P
SUPPLEMENTAL JUDGMENT
3/27/2019

Case 7:17-cv-08806-NSR Document 74 Filed 03/27/19 Page 1 of 1
<** ; - .

i!T1r

“1 I.

u

w
i!

i.

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

ij

■X

SHIRLEY DIMPS
Plaintiff,
-against-

17 CIVIL 8806 (NSR)

SUPPLEMENTAL
JUDGMENT

TACONIC CORRECTIONAL FACILITY
NYS DEPARTMENT OF CORRECTIONS
AND COMMUNITY SUPERVISION, NYS
DEPARTMENT OF CIVIL SERVICE, and
CSEA, INC.,
Defendants.
----- -X

It is hereby ORDERED, ADJUDGED AND DECREED: That for the reasons
stated in the Court's Opinion and Order dated March 25,2019, Defendant CSEA’s motion to
dismiss is granted; Plaintiffs attempt to file a Second Amended complaint is denied; by Opinion
dated March 20,2019, the Court dismissed all claims asserted against Taconic, DOCCS and
DCS; accordingly, the case is closed.
Dated: New York, New York
March 27,2019

RUBY J. KRAJICK ^
Clerk of Cow

BY;------ -

D

Depi

21

lerk

TUTS DOCUMENT WAS ENTERED.
ON Till- DOCKET ON

APPENDIX Q
ORDER
2/7/2020

Case 7:17-cv-08806-NSR Document 77 Filed 02/07/20 Page 1 of 1

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
Shirley Dimps,
Plaintiff,

ii

-against17-cv-8806 (NSR)
TACONIC CORRECTIONAL FACILITY, NYS
DEPARTMENT OF CORRECTIONS AND
COMMUNITY SUPERVISION, NYS
DEPARTMENT OF CIVIL SERVICE, AND CSEA,
INC.,

i

ORDER

Defendants.
NELSON S. ROMAN, United States District Judge
In light of the Summary Order issued by the Second Circuit on February 5,2020 (No. 190975-cv), which vacated the Court’s March 27,2019judgment (ECF No. 74) to the extent it denied
Plaintiff leave to amend her Title VII claims against the New York State Department of
Corrections and Community Supervision (“DOCCS”), it is hereby ORDERED that Plaintiff file,
by March 23,2020, a Second Amended Complaint that alleges Title VII claims against DOCCS.
Consistent with the Second Circuit’s Summary Order, the Second Amended Complaint must
demonstrate the timeliness of Plaintiffs Title VII claim and the requisite exhaustion of
administrative remedies.
The Clerk of the Court is respectfully directed to re-open this case. The Clerk is further
directed to mail a copy of this Order to Plaintiff and to file proof of service on the docket.
Dated:

February 1,2020
White Plains, New York

i!
1 US sc mIV
n
DOCUMENT
i
i E LE CT CONICALLY FILED L!

n

I;

'Z-

SO ORDERED-

i

^elsoiTsTroman
United States District Judge
!

Additional material
from this filing is
available in the
Clerk's Office.

